September 2008
Report No. AUD-08-018


FDIC’s Receivership Service Billing
Process




            AUDIT REPORT
                                                          Report No. AUD-08-018                                                September 2008

                                                          FDIC’s Receivership Service Billing Process
                                                          Audit Results
         Federal Deposit Insurance Corporation

                                                          The FDIC has designed and implemented controls over the receivership service
  Why We Did The Audit                                    billing process to ensure that receiverships are fairly and accurately billed in
                                                          accordance with applicable laws and regulations. The process for establishing the
  When an FDIC-insured institution fails or is            FDIC’s 2008 service line rates for receivership billings was documented in rate
  closed by a federal or state regulatory agency,
                                                          cases approved by the FDIC’s Chief Financial Officer for each service line. The
  the FDIC is appointed as receiver. The FDIC
                                                          six rate cases we examined were accurately calculated and fully supported.
  billed $21 million in 2007 to 45 receiverships
  for work conducted on behalf of the
  receiverships by Corporation employees.                 The receivership billing process includes controls in DRR and DOF to provide
  Receivership billings reduce the cash available         reasonable assurance that receivership service billings are accurately recorded and
  for dividend payments, including those to               billed to the receiverships. For example, during the first quarter of 2008, certain
  uninsured depositors and other claimants.               litigation billings did not properly transfer to the BCCR due to an account coding
  Therefore, the FDIC’s receivership service              issue in the FDIC’s time and attendance system. However, the discrepancies were
  billing process is intended to ensure effective         identified because of the internal control procedures designed in the process. As a
  cost monitoring and that control activities are in      result, corrective action was initiated to resolve the coding issue, and DOF
  place and observed to promote fairness in               personnel ensured that the proper billings were entered into the RSB.
  servicing operations.
                                                          Additionally, DRR has established a performance measure to evaluate receivership
  The audit objective was to assess the design            billings in accordance with FDIC Circular 4010.3, FDIC Enterprise Risk
  and implementation of controls over the                 Management Program. DRR’s Receivership Oversight Section prepares a
  FDIC’s receivership service billing process.            Quarterly Update report on each receivership to measure its progress. The
  The audit focused on controls intended to               Quarterly Update provides a detailed description of the status of the receivership
  ensure that receiverships are fairly and                operations including: financial data on the receivership expenses, estimated cash
  accurately billed in accordance with applicable         recoveries, projected and completed milestones, asset disposition, and litigation
  laws and regulations.                                   status. The Quarterly Update includes the quarterly and cumulative receivership
                                                          service line expenses billed and provides a performance measure to analyze the
  Background                                              receiverships budgeted to actual expenses.

  The Federal Deposit Insurance Act permits the           Although adequate controls have been designed and implemented to ensure that
  FDIC to charge its receiverships all of the             billings by service line are reviewed, controls for ensuring that billings are
  expenses of liquidation as are fixed by the             reviewed for the receiverships can be strengthened. Specifically, DRR is not
  FDIC. The FDIC adopted an implementing                  providing the same level of review to individual receiverships as that provided to
  regulation governing administrative expenses
                                                          the service lines. Such reviews, which include certification, provide added
  of a receivership. Additionally, FDIC Circular
                                                          assurance that billings are reasonable. Fully documenting the receivership billing
  7000.5, Billing and Cost Management Program
  for the Receivership Management Business
                                                          review procedures, as well as the billing review results, and certifying the
  Line, identifies cost monitoring and control            Receivership Oversight Section reviews similar to the review process for service
  activities for receivership billings.                   line billings would help to ensure that the FDIC thoroughly and consistently fulfills
                                                          the role of advocate for the interests of the receiverships.
  The Division of Resolutions and Receiverships
  (DRR) is responsible for billing receiverships
                                                          Recommendation and Management Response
  for services rendered. Monthly receivership
  invoices are prepared by DRR’s Billing and              We recommend that FDIC management strengthen the receivership advocacy role
  Cost Center Reporting Tool (BCCR) based on              of the Receivership Oversight Section by:
  service line rates for various receivership                    •   updating Circular 7000.5 and/or other guidance, as necessary, to clarify
  program activities. DRR’s Receivership                             instructions for receivership billing reviews performed by the
  Oversight Section acts as an advocate for the                      Receivership Oversight Section, including the frequency of reviews;
  interests of the receivership, including
  reviewing receivership billings for                            •   fully documenting the review procedures performed by the Receivership
  reasonableness of charges. Approved invoices                       Oversight Section; and
  are submitted to the Division of Finance
  (DOF), which maintains the Receivership                        •   certifying or otherwise documenting the results of reviews conducted by
  Service Billing System (RSB)—the system of                         the Receivership Oversight Section, including the reasonableness of the
  record for receivership billings.                                  charges.
                                                                 Management concurred with our recommendation and is taking responsive
                                                                 action.

To view the full report, go to www.fdicoig.gov/2008reports.asp
Contents                                                             Page


BACKGROUND                                                             1
     Receivership Service Billing Process                              3
       Rate-Setting Process for 2008 Receivership Billings             4
       Monthly Receivership Service Billing Process and Controls       5
     Laws and Regulations Related to Receivership Expenses             7
     Guidance and Controls Related to Receivership Service Billing     7

RESULTS OF AUDIT                                                       9

CONTROLS IN THE FDIC’S RECEIVERSHIP BILLING PROCESS                   10
     2008 Service Line Rates                                          10
     Monthly Service Billing Process                                  10
     Performance Measures                                             11

REVIEW PROCEDURES FOR THE RECEIVERSHIP OVERSIGHT                      12
SECTION
     Quarterly Review                                                 12
     Recommendation on Procedures for Receivership Oversight          14

CORPORATION COMMENTS AND OIG EVALUATION                               14

APPENDICES
    1. OBJECTIVE, SCOPE, AND METHODOLOGY                              15
    2. CORPORATION COMMENTS                                           19
    3. MANAGEMENT RESPONSE TO THE RECOMMENDATION                      20
    4. ACRONYMS USED IN THE REPORT                                    21

TABLES
     1. 2007 Receivership Service Line Billings                        3
     2. Quarterly Update Reports Reviewed                             13

FIGURES
     1. Receivership Billings from 2002 – 2007                         2
     2. Number of Receiverships 2002 – 2007                            2
     3. Number of Problem Institutions 2002 – 2008                     2
     4. 2008 Service Line Rate Options                                 4
     5. Receivership Service Billing Process                           6
     6. Sampled Service Line Rate Cases                               10
    Federal Deposit Insurance Corporation                                                           Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


    DATE:                                     September 23, 2008

    MEMORANDUM TO:                            Mitchell Glassman
                                              Director, Division of Resolutions and Receiverships

                                              Bret D. Edwards
                                              Director, Division of Finance

                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  FDIC’s Receivership Service Billing Process
                                              (Report No. AUD-08-018)

    This report presents the results of the subject audit. When an FDIC-insured institution fails
    or is closed by a federal or state regulatory agency, the FDIC is appointed as receiver. The
    receivership service billing process is the method by which the Corporation bills the cost of
    FDIC services provided to individual receiverships. The audit objective was to assess the
    design and implementation of controls over the FDIC’s receivership service billing process.
    The audit focused on controls for ensuring that receiverships are fairly and accurately billed
    in accordance with applicable laws and regulations. We conducted this performance audit in
    accordance with generally accepted government auditing standards. Appendix 1 of this
    report discusses our audit objective, scope, and methodology in detail.


BACKGROUND

    The FDIC’s Receivership Management Program, one of the FDIC’s three main business
    lines, includes performing the closing function of a failed institution, maintaining the
    value of and liquidating any remaining failed institution assets, and distributing any
    proceeds of the liquidation to those with approved receivership claims. The FDIC is often
    the largest claimant after fulfilling its obligations as deposit insurer. Receivership
    billings can occur for a number of years after a financial institution is closed depending
    on such factors as success in selling assets and the results of litigation.

    As shown in Figures 1 and 2 on the following page, receivership billings decreased from
    $63.1 million in 2002 to $21.1 million in 2007 as the number of receiverships reduced
    from 119 to 35. However, as of August 31, 2008, 38 receiverships were billed
    $32.8 million and 10 new receiverships were established in 2008. The FDIC projects that
    the number of receiverships will continue to increase during the remainder of 2008. An
    indicator of this increase is the number of institutions that are poorly rated as a result of
    safety and soundness examinations. Figure 3 shows the recent increase in these
    institutions.
Figure 1: Receivership Billings from 2002 - 2007

                                                           Se rvice Billings From 2002 - 2007

                              70         $63.1 million

                              60




       Dollars in Millions
                              50
                                                                      $37.0 million
                              40
                                             $36.6 million                                                             $21.1 million
                              30
                                                                                                    $11.4 million
                              20
                                                                               $16.3 million
                              10
                               0
                                           1
                                          2002         2
                                                     2003                  3
                                                                         2004                  4
                                                                                             2005              5
                                                                                                             2006            6
                                                                                                                           2007
                                                                             Ye ar

Source: OIG analysis of service billings information provided by DOF.

Figure 2: Number of Receiverships 2002 - 2007

                                                   Numbe r of Re ce ive rships from 2002 -2007


                              140
   Number o f Receiverships




                                             119
                              120
                              100
                                                                85
                               80                                               70
                               60                                                               52
                                                                                                                44
                               40
                               20                                                                                            35
                                0
                                            2002
                                             1             2003
                                                            2                2004
                                                                               3               2005
                                                                                                4               2006
                                                                                                                5              62007

                                                                                      Ye ars

Source: The FDIC’s Division of Resolutions and Receiverships.

 Figure 3: Number of Problem Institutions 2002 - 2008
                                                                Number of Problem Institutions

                         Number of Problem Institutions
                            160
                                      136
                            140
                                                   116                                                                       117
                            120
                                   100
                                                                          80                                    76
                                    80
                                                                                        52
                                    60                                                                50
                                    40
                                    20
                                     0
                                            1
                                          2002             2
                                                         2003           3
                                                                       2004             4
                                                                                        2005         52006      62007        72008
                                                                                Years


 Source: The FDIC’s Virtual Supervisory Information on the Net System Reporting Database.




                                                                         2
Receivership Service Billing Process

       The receivership service billing process consists of an annual rate-setting process
       managed by the FDIC’s Division of Resolutions and Receiverships (DRR) and the
       monthly billings process for receiverships that involve both DRR and the FDIC’s
       Division of Finance (DOF). DOF is responsible for the FDIC’s Receivership Service
       Billing System (RSB), which is the system of record for receivership billings.
       Receivership billings reduce the cash available for dividend payments, including those to
       uninsured depositors and other claimants. Therefore, it is important that the FDIC
       establish and implement effective cost monitoring and control activities to ensure fairness
       and accuracy in incurring and recording the costs of receivership servicing operations.

       To bill receiverships for operational expenses, the FDIC established 19 types of activities
       (service lines) as shown in Table 1 that represent receivership program functions
       performed to resolve a failed financial institution and liquidate the receivership.

               Table 1: 2007 Receivership Service Line Billings
                               Service Line                Total Billed During 2007
                Franchise Marketing                                       $ 969,320
                Valuation                                                    128,264
                Closings                                                   5,151,869
                Loan Sales                                                   794,821
                Securities Management and Sales                              450,749
                Owned Real Estate Sales                                      153,214
                Other Assets Management and Sales                             32,269
                Subsidiaries Management                                      325,202
                Loans Management                                           2,953,446
                Owned Real Estate Management                                 210,152
                Contract Oversight                                            31,695
                Investigations                                             1,902,421
                Asset Claims Administration                                  361,617
                Other Receivership Claims                                    461,430
                Receivership Oversight                                       556,421
                Employee Benefits                                            222,847
                Customer Service                                             597,000
                Specialized Receivership Accounting                        1,341,835
                Legal Services                                             4,402,141
                Total                                                    $21,046,713
               Source: The RSB.



       The FDIC has also established a five-digit program code in the FDIC’s financial systems
       that represents a service line and is used to charge expenses, record costs, and measure
       financial performance and planned outcomes.




                                                    3
Rate-Setting Process for 2008 Receivership                           Figure 4: 2008 Service Line Rate Options
Billings. Billing rates are used to bill receiverships
for services rendered and are established on a yearly                Option A – Activity-Based Costing (ABC)
basis for each receivership management business line                 ABC is a methodology, generated by a consulting firm,
service.                                                             that is used to measure and then price all the resources
                                                                     used for activities that support the production and
                                                                     delivery of products and services to customers. This
DRR’s Billing and Cost Center (BCC) coordinates the                  methodology maps a functional process and assigns a
rate-setting process with Program Code Owners and                    cost and time factor to each step in the process. The
                                                                     sum of these cost and time factors serves as the output
Service Line Owners. The Program Code Owner is                       for the ABC benchmark rate.
responsible to manage the billing and cost-related
                                                                     Option B – Market-Based Benchmark
matters associated with each service line. The
Service Line Owner serves as the subject matter                      Market-based rates are determined by identifying the
                                                                     cost of performing similar activities to those of the
expert for a particular service line, proposes billing               FDIC in the private sector. The market-based
rates to charge receiverships fairly and accurately,                 benchmarks presented the median cost data found and
and prepares supporting rate cases.                                  exclude high and low extremes.
                                                                     Option C – DRR Employee Hourly Rate
To document the rate-setting process for receivership                The DRR hourly rate was calculated based on the
billings, each Service Line Owner prepares a                         adjusted full cost of DRR business programs and
                                                                     DRR’s estimate of available hours. DRR’s full cost
memorandum to the Director, DRR, recommending a                      was reduced for items that were determined not to be
rate for their respective service line. The Legal                    appropriately billed, such as information technology
Division Service Line Owner prepares a                               development and outside services billed directly to the
                                                                     receiverships.
memorandum to the FDIC’s General Counsel,
recommending rates at which receiverships should be                  Option D – Unit Rate
billed for attorney and paralegal services. For 2008,                The unit rate reflects the actual cost to produce one
the memoranda recommended a proposed rate based                      unit of work for a particular service line. The unit rate
                                                                     utilizes a cost driver (i.e., number of loans sold) and
on analysis of the four rate options shown in Figure 4.              uses only mission-related work to derive the rate.
                                                                     Mission work is defined as employee costs that are
DRR and the Legal Division developed the 2008 service                charged to a specific receivership.

line rates based on benchmark studies and analyses              Source: DRR 2008 Service Line Rate Cases.

performed in 2006 and 2007 by a private consultant and
workload and costing data from the FDIC’s New Financial Environment (NFE). 1 Using
this data and DRR’s estimate of available staff hours, the Service Line Owners calculated
the unit cost and hourly rate for each receivership management program activity. The
Service Line Owners then used this data to compare actual costs to both the market-based
benchmark and the ABC benchmarks generated by a consulting firm. Based on an
analysis of the various rate options for each service line, the Director, DRR, with the
concurrence of the General Counsel and approval of the FDIC’s Chief Financial Officer,
determined that the DRR and Legal Division would use the Employee Hourly Rate
option to bill receiverships for 2008. These hourly rates were set at $219 for DRR
employees, $278 for attorneys, and $99 for paralegals.




1
    NFE is the FDIC’s financial management system, which is managed by DOF.
                                                    4
Monthly Receivership Service Billing Process and Controls. Based on the approved
2008 service line rates, receiverships are billed on a monthly basis for the hours charged
in the FDIC’s Corporate Human Resources Information Time and Attendance System
(CHRIS T&A) by DRR and Legal Division employees. Employees code their hours in
CHRIS T&A by receivership and service line, which are then reviewed and approved by
their assigned supervisor. The approved time charges electronically feed into DRR’s
Billing and Cost Center Reporting Tool (BCCR) and to the RSB. Preliminary invoices,
by service line, are created in the BCCR and are accessible by the BCCR Administrator,
Service Line Owners, Program Code Owners, and Receivership Oversight personnel.


       Service Line Owner’s Review. By the 10th of each month, Service Line Owners
receive an email notification from the BCCR Administrator that they should review the
appropriateness of the charges billed to the respective service line. If any questionable
charges are noted, the Service Line Owners should contact supervisors of employees
whose charges appear questionable to verify that the charges are appropriately billed.
The Service Line Owners certify the monthly charges to the BCCR Administrator and/or
submit adjustments by the 15th of each month.


        Program Code Owner’s Review. On a quarterly basis, the BCCR Administrator
provides each Program Code Owner with cost reports for a detailed review to ensure that
costs, including employee hours are charged accurately. The Program Code Owners
must certify to the BCCR Administrator that employee hours are being charged to the
correct Program Code.


        Receivership Oversight Section’s Review. The DRR’s Receivership Oversight
Section is assigned the role of an advocate for the interests of the receivership. This role
includes performing monthly reviews of service billings for reasonableness of charges,
recommending billing adjustments to Service Line Owners, communicating with all
Service Line Owners and the BCCR administrator on billing errors that may impact all
service lines, and providing updates on the performance of receiverships, noting any
billing and cost issues.

Upon completion of DRR’s review, the BCCR Administrator submits the certified
invoices to the RSB System Administrator in DOF. The RSB System Administrator
reconciles the BCCR invoices to the information contained in the RSB to ensure the
accuracy and completeness of the billings. The RSB System then automatically feeds
these charges to the NFE General Ledger and the receivership Statement of Operations to
bill the receiverships. Figure 5 on the next page illustrates the receivership service billing
process.




                                              5
                                Figure 5: Receivership Service Billing Process



    Start
                 DRR Employees              DRR Supervisors                 Data from CHRIS T&A to Payroll             DOF
                                                                                        Bridge
                                                                                                             RSB calculates receivership
                                                                                                             bills using payroll bridge
                                                                                                             and approved rates.

        DRR employees submit time           DRR supervisors
          charges by fund code &          approve CHRIS T&A
        service line in CHRIS T&A            Time Charges
                                                                                          Computer                             Receivership
               Program Code Owner                                                          Process                             Service Bill

                                                                               DRR
                                                                      BCCR preliminary                   DOF compares the
                                                                      invoices prepared for              receivership service
                                                                      review by Service Line             billings and DRR
                                                                      Owners.                            reports with adjusting
     Quarterly T&A certification
     performed by the Program                                                                            entries.
     Code Owner – who is a higher
     level of authority than the                                                                                                 DRR
     Service Line Owner.                                 APPROVED                              DISAPPROVED                     Adjusting
                                                                                                                                Entries
    2008 Receivership Service Line
               Billings
                                                                                                                 Computer
•       Franchise Marketing
                                                                                                                  Process
•       Valuation                             DOF posts data to the
•       Closings                              Receivership Service              DRR provides
•       Loan Sales                            Billing System.                   adjusting entries from
•       Securities Management & Sales                                           Service Line Owners.
•       Owned Real Estate Sales                                                 Hourly T&A
•       Other Assets Management & Sales                                         corrections will show
•       Subsidiaries Management                                                 in future T&A data.
•       Loans Management
•       Owned Real Estate Management
•       Contract Oversight
•       Investigations
•       Asset Claims Administration                                                                            NFE uses RSB data for
•       Other Receivership Claims                                                                              posting to the General
•       Receivership Oversight                                                                                       Ledger and
•       Employee Benefits                                                                                           Receivership
•       Customer Service                                                                                            Statement of
•       Specialized Receivership                                                                                    Operations.
        Accounting
•       Legal Services



                                                                                  Process End
                                                                                                                     DRR Receivership
                                                                                                                     Oversight Section
                                                                                                                   reviews billings as an
                                                                                                                  advocate for individual
                                                                                                                       receiverships.



Source: OIG Analysis.




                                                         6
Laws and Regulations Related to Receivership Expenses

      The Federal Deposit Insurance Act,2 permits the FDIC to charge its receiverships all of
      the expenses of liquidation as are fixed by the FDIC. No specific standards regarding the
      manner in which expenses are to be charged are set by the Act. However, the FDIC has
      adopted an implementing regulation governing administrative expenses of a receivership
      at 12 Code of Federal Regulations (C.F.R.) §360.4, 3 which states that such expenses shall
      include obligations that the receiver determines are necessary and appropriate to facilitate
      the smooth and orderly liquidation or other resolution of the institution.


Guidance and Controls Related to Receivership Service Billing

      The FDIC has established policies and procedures related to controls over the
      receivership service billing process as described below.

      FDIC Circular 4010.3. FDIC Enterprise Risk Management Program. The circular
      adopted internal control standards prescribed in the Government Accountability Office
      (GAO) publication, Standards for Internal Control in the Federal Government. The GAO
      standards apply to all operations (programmatic, financial, and compliance) and are
      intended to ensure the effectiveness and efficiency of operations, reliability of financial
      reporting, and compliance with applicable laws and regulations. Circular 4010.3 requires
      management to develop and implement controls to ensure that management directives are
      carried out and to provide reasonable assurance that controls are sufficient to minimize
      exposure to waste, fraud, and mismanagement.

      Key control activities related to the receivership service billing process described in
      Circular 4010.3 include:

           •   Segregation of Duties. Key duties and responsibilities shall be divided among
               different individuals such that no one individual should control all key aspects of a
               transaction to reduce the risk of error or fraud.

           •   Proper Execution of Transactions and Events. Transactions and other significant
               events shall be authorized and executed only by persons acting within the scope of
               their authority.

           •   Appropriate Documentation of Transactions and Internal Controls. Internal
               controls, all transactions, and other significant events shall be clearly
               documented. This helps to ensure that billing transactions are complete,

      2
        The statute, 12 United States Code §1822 (a), provides that, “all fees, compensation, and expenses of
      liquidation and administration shall be fixed by the Corporation, and may be paid by it out of funds coming
      into its possession as such receiver.”
      3
        The regulation states that the administrative expenses of the receiver, “shall include those necessary
      expenses incurred by the receiver in liquidating or otherwise resolving the affairs of a failed insured
      depository institution. Such expenses shall include pre-failure and post-failure obligations that the receiver
      determines are necessary and appropriate to facilitate the smooth and orderly liquidation or other resolution
      of the institution.”
                                                             7
        accurate, and recorded in a timely manner. Documentation shall be readily
        available for examination.

    •   Performance Monitoring. The circular requires management to perform
        monitoring activities to assess the quality of performance over time and the
        effectiveness of controls. Monitoring activities include routine management and
        supervisory actions; transaction comparisons and reconciliations; other actions
        taken in the course of normal operations; as well as separate and discrete control
        evaluations, including internal self-assessments and external reviews.

    •   Performance Measures. The circular requires management to establish and review
        performance measures and indicators. It provides that controls shall be
        established to monitor performance by comparing and assessing actual
        performance data with performance goals and analyzing significant differences
        between the two.

FDIC Circular 7000.5, Billing and Cost Management Program for the Receivership
Management Business Line, dated July 11, 2006, establishes policies and procedures for
the Billing and Cost Management Program for the Receivership Management Business
Line. The circular provides the roles and responsibilities for establishing billing rates, the
monthly receivership billing process, and controls for ensuring that effective cost
monitoring and management principles are in place and observed to promote efficiency.
Key controls are established for the receivership billing process, as described below:

   •    Service Line Owners propose billing rates to charge receiverships fairly and
        accurately for services provided and prepare supporting rate cases.

   •    The BCC:
           o Works with Service Line Owners to develop rate cases.
           o Issues preliminary monthly invoices to Service Line Owners, approves
              adjustments, and transmits approved billing data to DOF.
           o Serves as the central point of contact for Program Code Owners, Service
              Line Owners, and Receivership Oversight on all billing and cost matters.
           o Serves as the principal liaison with DOF on all billing and cost matters.

   •    Service Line Owners review, analyze, and approve monthly billing invoices to
        ensure correct charges are being made within service lines.

   •    The Receivership Oversight Section acts as advocate for the interests of the
        receivership, including the monthly review of service billings for reasonableness
        of charges.

   •    Program Code Owners certify quarterly that employee hours are being charged to
        the correct program code.

   •    Managers and supervisors are responsible for thoroughly understanding expense
        coding guidelines.

                                              8
       •   Employees are responsible for utilizing the full range of program codes to
           properly segment expenses.


RESULTS OF AUDIT

    The FDIC has designed and implemented controls over the receivership service billing
    process to ensure that receiverships are fairly and accurately billed in accordance with
    applicable laws and regulations. The process for establishing the FDIC’s 2008 service
    line rates was documented in rate cases approved by the FDIC’s Chief Financial Officer
    for each service line. The six rate cases we examined were accurately calculated and
    fully supported.

    The receivership billing process includes controls in DRR and DOF to provide reasonable
    assurance that receivership service billings are accurately recorded and billed to the
    receiverships. For example, during the first quarter of 2008, certain litigation billings did
    not properly transfer to the BCCR due to an account coding issue in the CHRIS T&A
    system. However, the discrepancies were identified because of the internal control
    procedures designed in the process. As a result, corrective action was initiated to resolve
    the coding issue, and DOF personnel ensured that the proper billings were entered into
    the RSB.

    Additionally, DRR has established a performance measure to evaluate receivership
    billings in accordance with FDIC Circular 4010.3, FDIC Enterprise Risk Management
    Program. DRR’s Receivership Oversight Section prepares a Quarterly Update report on
    each receivership to measure its progress. The Quarterly Update provides a detailed
    description of the status of the receivership operations including: financial data on the
    receivership expenses, estimated cash recoveries, projected and completed milestones,
    asset disposition, and litigation status. The Quarterly Update includes the quarterly and
    cumulative receivership service line expenses billed and provides a performance measure
    to analyze the receiverships budgeted to actual expenses.

    Although adequate controls have been designed and implemented to ensure that billings
    by service line are reviewed, controls can be strengthened for ensuring that billings are
    reviewed for the receiverships. Specifically, DRR is not providing the same level of
    review for billings by receivership as that provided for billings by service line. Fully
    documenting the receivership billing review procedures, as well as the billing review
    results, and certifying the Receivership Oversight Section reviews similar to the review
    process of billings by service line would help to ensure the FDIC thoroughly and
    consistently fulfills the role of advocate for the interests of the receiverships.




                                                 9
CONTROLS IN THE FDIC’S RECEIVERSHIP BILLING PROCESS

      The FDIC has established controls to ensure that the receiverships are fairly and
      accurately billed in accordance with applicable laws and regulations. We found that the
      process for establishing the FDIC’s 2008 service line rates was fully documented and
      supported in accordance with FDIC Circular 7000.5. The monthly receivership billing
      process includes controls in DRR and DOF to provide reasonable assurance that
      receivership service billings are adequately reviewed and supported and that performance
      measures for receivership billings have been established to monitor receivership
      performance.


2008 Service Line Rates

      DRR provided the approved rate cases for each of the 19
                                                                         Figure 6: Sampled Service Line
      service lines established for 2008. We selected a judgmental
                                                                                     Rate Cases
      sample of six service line rate cases to determine whether
      they were accurately calculated and supported and properly         Loans Management
      approved. Each of the rate cases we examined included four         Loan Sales
      rate options. For each rate option, we verified the accuracy       Closings
      of the calculations, whether the financial data presented in
                                                                         Other Receivership Claims
      the rate case were properly presented, and whether the rate
      option was supported by source documentation. For                  Investigations
      example, two of the rate options relied on a methodology           Legal Services
      provided by a private consulting firm in 2006 and 2007. We Source: The FDIC’s 2008 Service Line
      traced the costs used in these options to the consultant’s               Rate Cases.
      reports to verify that the numbers used in the 2008 rate case
      had been updated and followed the methodology presented in the consultants report. In
      addition, we verified that the cost and billing data obtained from the NFE was accurately
      calculated and supported by schedules obtained from DOF to calculate the hourly rates of
      $219 for a DRR employee, $278 for an attorney, and $99 for a paralegal. Finally, we
      verified that all rate cases had been reviewed and approved by the FDIC’s General
      Counsel and Chief Financial Officer.


Monthly Service Billing Process

      We obtained the preliminary receivership invoices from the DRR BCCR Administrator
      for the period January to April 2008. We compared the billings provided from DRR’s
      BCCR to those recorded in the RSB. We found that hourly charges totaling $1.2 million
      did not reconcile between the two systems. We presented these results to the RSB
      Administrator in DOF who provided support for each of the exceptions we noted. The
      RSB Administrator told us that some of these charges were related to adjustments
      resulting from the Service Line Owners’ preliminary invoice review. However, most of
      the billing exceptions were due to a CHRIS T&A coding problem that the RSB
      Administrator had discovered during the standard monthly processing of receivership
      billings. As part of the control process, the RSB Administrator compares the reports he
      receives from the BCCR to the payroll information in the RSB. He discovered that the

                                                   10
      data did not match for an unusually high number of records. As a result, DOF, DRR, and
      Legal Division personnel involved in the monthly billing process met and determined that
      the source of the problem was the CHRIS T&A code used by paralegals and attorneys in
      the Legal Division to charge their time to the Legal Services service line. The CHRIS
      T&A code was revised to ensure that charges for the Legal Services service line were
      accurately reflected in the RSB.

      We selected a judgmental sample of 20 invoices from January to April 2008 to verify
      whether the Service Line Owners had certified the preliminary invoices for their service
      lines as required by Circular 7000.5. Of the 20 sample invoices, 19 had been certified
      within the timeframes established by DRR’s BCC. The one exception was due to the
      Service Line Owner being out of town during the billing process. However, the invoice
      was subsequently approved by the Service Line Owner.

      To determine whether receivership billings were in excess of the cost of services
      provided, we examined the billings to the Franchise Marketing Service Line that uses a
      market-based scale for receivership billings based on the premium paid by the acquiring
      bank, rather than the DRR employee hourly rate. According to Counsel in the FDIC’s
      Legal Division, the use of a market rate is appropriate as long as it does not result in the
      receivership being billed in excess of the FDIC’s cost to perform the services for the
      receivership. To ensure that the FDIC is not billing receiverships over the cost of
      services for franchise marketing, we compared the billings for five judgmentally selected
      financial institution closings to FDIC Franchise Marketing related costs. None of the
      Franchise Marketing billings exceeded the cost of services for the five financial
      institution closings we reviewed.


Performance Measures

      FDIC Circular 4010.3, FDIC Enterprise Risk Management Program, requires
      management to establish and review performance measures and indicators. It provides
      that controls shall be established to monitor performance by comparing and assessing
      actual performance data with performance goals and analyzing significant differences
      between the two. DRR’s Receivership Oversight Section prepares a Quarterly Update to
      report on the progress of each receivership for DRR senior management. This document
      is intended to provide a historical record of the receivership; framework for creating,
      executing, and monitoring the receiverships goals and objectives; and means to measure
      performance. We obtained a judgmental sample of 10 receivership Quarterly Updates
      completed from March to June 2008 (shown in Table 2 later in this report). We verified
      that each Quarterly Update included receivership billing data for the quarter and the
      budget variance analysis to measure the receivership billings. We found each report
      accurately reported the receivership billings and included a budget variance for the
      receivership.

      DRR has established and implemented controls and performance measures to ensure
      receiverships are fairly and accurately billed in accordance with applicable laws and
      regulations. However, as described below, procedures for the Receivership Oversight
      Section’s billing review need to be fully documented to help ensure the effective

                                                   11
      advocacy of receivership interests and protect the FDIC’s reputation as the receiver for
      failed financial institutions.


REVIEW PROCEDURES FOR THE RECEIVERSHIP OVERSIGHT SECTION

      DRR’s Receivership Oversight Section serves as an advocate for the interests of
      receiverships. Its mission is to foster the administration and conclusion of the affairs of
      all receiverships in a responsible, expedient, and cost-effective manner. Circular 7000.5
      requires the Receivership Oversight Section to review monthly receivership billings for
      reasonableness. However, the procedures for conducting the receivership billings review
      have not been fully documented in accordance with FDIC Circular 4010.3. Additionally,
      the billing review conducted by the Receivership Oversight Section is not required to be
      certified, in contrast to such a requirement for the service line billing reviews conducted
      by the Service Line Owners and Program Code Owners. Such reviews, which include
      certification, provide added assurance that billings are reasonable. Fully documenting the
      receivership billing review procedures, as well as the billing review results, and certifying
      the Receivership Oversight Section reviews similar to the review process for service lines
      would help to ensure that the FDIC thoroughly and consistently fulfills the role of
      advocate for the interests of the receiverships.


Quarterly Review

      According to Receivership Oversight Section personnel, they review receivership billings
      on a quarterly rather than monthly basis in conjunction with their preparation of the
      Quarterly Update report. The Receivership Oversight Section personnel explained that it
      is more efficient for them to review the billings for comparison with the liquidation
      activity that has occurred for the receivership during the quarter. For example, to prepare
      the Quarterly Update report, Receivership Oversight Section personnel obtain quarterly
      data on assets sold for the receivership. To assess the reasonableness of receivership
      quarterly billings, Receivership Oversight Section personnel compare the quarterly
      billings to the assets sold for the receivership to determine whether the charges appear
      reasonable. Similar analysis is conducted for other service lines such as legal services,
      receivership claims, investigations, and closings. When billings appear to be excessive or
      unusual, the Receivership Oversight Section personnel contact the respective Service
      Line Owner or manager involved to determine why the charges occurred and recommend
      adjustments to be made, if necessary. Also, as mentioned earlier, the Quarterly Update
      report includes performance data on the service line billings, including a calculation of
      the budget variance analysis. Receivership Oversight Section personnel told us that they
      also use this data to evaluate the receiverships billings.

      Information on the 10 Quarterly Update reports is shown in Table 2 on the following
      page.




                                                   12
Table 2: Quarterly Update Reports Reviewed
                                                                              Projected Expenses to Actual
                                                        Date of Quarterly      Expenses Budget Variance
              Receivership Name                              Report              Favorable or (Unfavorable)
                                                                                         (millions)
 Southern Pacific Bank                                       May 31, 2008                 $ (6.6)
 NetBank                                                    March 31, 2008                    5.3
 Hamilton Bank                                               April 30, 2008                   6.7
 Guaranty National Bank of Tallahassee                       April 30, 2008                  (2.2)
 Connecticut Bank of Commerce                               March 31, 2008                  (12.1)
 Oakwood Deposit Bank Co.                                    April 30, 2008                  (4.4)
 The First National Bank of Blanchardville                   June 30, 2008                   (1.9)
 NextBank                                                   March 31, 2008                    6.2
 Miami Valley Bank                                           April 30, 2008                  ( .6)
 Metropolitan Savings Bank                                   April 30, 2008                $ (1.7)
Source: DRR Receivership Quarterly Update Reports as indicated.




Although the Quarterly Updates we reviewed included an explanation for the causes of
the budget variance, they did not state that the billings had been examined and were
found to be reasonable or provide information on how the review was conducted and the
results.

Circular 7000.5 contains a provision indicating that DRR’s Receivership Oversight
Section is responsible for acting as an advocate for the interests of the receivership,
including the monthly review of receivership billings for reasonableness of charges;
recommending billing adjustments to Service Line Owners; communicating with all
Service Line Owners and the BCC on billing errors that may impact all service lines; and
providing updates on the performance of receiverships, noting any billing and cost issues.

Guidance issued by DRR’s BCC to Program Code Owners and Service Line Owners
provided procedures for their monthly review of service line billings. These procedures
include: accessing the BCCR to review hourly charges to the program and projects,
ensuring that the proper coding was used, contacting supervisors of employees whose
charges appear questionable, and correcting any charges immediately via the CHRIS
T&A system. These procedures also provide that this review be conducted each month
and require that the Service Line Owners certify that the charges are correct prior to
being submitted to DOF. However, the BCC has not issued similar guidance to the
Receivership Oversight Section for the review of receivership billings. As a result, the
billing reviews for receiverships are not conducted on a monthly basis as prescribed by
Circular 7000.5, fully documented, and certified in the same manner as the review for
service line billings.

FDIC Circular 4010.3. FDIC Enterprise Risk Management Program requires every
operating and policy area in the Corporation to have fundamental requirements, including
procedures that are both current and appropriately documented. By fully documenting
procedures for the Receivership Oversight Section review of receivership billings and the
review results, DRR will improve controls to ensure that it thoroughly and consistently
fulfills its role of advocate for the interests of the FDIC’s receiverships.


                                                             13
Recommendation on Procedures for Receivership Oversight

      We recommend that the Director, DRR, strengthen the receivership advocacy role of the
      Receivership Oversight Section by:
         •   updating Circular 7000.5 and/or other guidance, as necessary, to clarify
             instructions for receivership billing reviews performed by the Receivership
             Oversight Section, including the frequency of reviews;
         •   fully documenting the review procedures performed by the Receivership
             Oversight Section; and
         •   certifying or otherwise documenting the results of reviews conducted by the
             Receivership Oversight Section, including the reasonableness of the charges.


CORPORATION COMMENTS AND OIG EVALUATION

      On September 16, 2008, the Director, DRR, provided a written response to the draft of
      this report. DOF was not required to provide a written response to the draft of this report.
      Management’s response is presented in its entirety in Appendix 2. Management agreed
      with our findings and recommendation.

      To address the recommendation, DRR will update Circular 7000.5 and develop a job aid
      that documents the review procedures performed by the Receivership Oversight Section.
      Circular 7000.5 will be updated to state that the receivership billing review will be
      performed in conjunction with the preparation of the Quarterly Update. The job aid will
      provide instructions on documenting and reporting the results of the review, including the
      reasonableness of the charges.

      A summary of management’s response to the recommendation is in Appendix 3. DRR’s
      planned actions are responsive to our recommendation. The recommendation is resolved
      but will remain open until we determine that the agreed-to corrective actions have been
      completed and are responsive.




                                                   14
                                                                                       APPENDIX 1

                            OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The audit objective was to assess the design and implementation of controls over the
      FDIC’s receivership service billing process. The audit focused on controls for ensuring
      that receiverships are fairly and accurately billed in accordance with applicable laws and
      regulations. We conducted this audit from May 2008 through July 2008 in accordance
      with generally accepted government auditing standards. Those standards require that we
      plan and perform the audit to obtain sufficient, appropriate evidence to provide a
      reasonable basis for our findings and conclusions based on our audit objectives. We
      believe that the evidence obtained provides a reasonable basis for our findings and
      conclusions based on our audit objectives.


Scope and Methodology

      To accomplish the audit objective, we became familiar with the FDIC’s corporate
      policies and procedures applicable to the FDIC’s receivership service billing process.
      We conducted fieldwork at FDIC headquarters locations in Arlington, Virginia, and
      Washington, D.C. We reviewed the following circulars, policy, and procedure
      documents related to the receivership service billing process:

            •   FDIC Circular 4010.3, entitled, FDIC Enterprise Risk Management Program,
                adopted internal control standards prescribed in the GAO publication, Standards
                for Internal Control in the Federal Government. These standards apply to all
                operations (programmatic, financial, and compliance) and are intended to ensure
                the effectiveness and efficiency of operation, reliability of financial reporting, and
                compliance with applicable laws and regulations.

            •   FDIC Circular 7000.5 entitled, Billing and Cost Management Program for the
                Receivership Management Business Line, dated July 11, 2006. The circular
                establishes policy and procedures for the Billing and Cost Management Program
                for the Receivership Management Business Line.

            •   DRR’s Billing & Cost Center Reporting Tool (BCCR) Administrator’s Guide,
                dated November 14, 2007. The intent of this guidance is to provide the
                background and information required to (1) import data into the BCCR as the data
                become available and (2) provide an understanding of general maintenance
                actions.

            •   BCCR T&A Data Review and Certification Procedures, which require all
                employees to understand thoroughly and adhere strictly to all expense coding
                guidelines.



                                                      15
                                                                              APPENDIX 1


   •   DRR Coding Instructions, which were provided for completing CHRIS T&A and
       travel vouchers for pre-failures, failures, and post-failures.

To determine whether the FDIC’s process for establishing 2008 service line rates was
conducted and documented in a manner to ensure that receivership billings were
necessary and appropriate, we performed the following:

   •   Documented the approved 2008 rate case memorandum for each receivership
       service line and reviewed the rate case to identify critical data used to establish
       the proposed service line rate.

   •   Interviewed DRR officials responsible for the rate setting process to confirm our
       understanding of the process and clarify steps necessary for a full understanding
       of the roles and responsibilities of the Service Line Owners, sources of data used
       to evaluate the rate case, approval process, and other critical information deemed
       necessary in establishing the service line rate.

   •   Interviewed Service Line Owners to verify their concurrence with the rate option
       that was selected for their service line. Confirmed their understanding of the
       review of monthly service line billings.

   •   Obtained and reviewed service line budgeted data for the six sampled service
       lines, examined how the data were used in determining the approved service line
       rate, and verified whether the projected budgeted costs were fully recovered using
       the approved service line rate.

   •   Compared the consultant benchmark rates (market rates) with the approved
       service line rates. Verified that the benchmark rates were accurately described in
       the rate case, determined how the benchmark rates relate to the approved rate, and
       reviewed documentation supporting the approved rate over the benchmark rate.

   •   Determined whether the 2008 rate cases were prepared in accordance with FDIC
       and DRR directives and other established guidelines by comparing requirements
       of the directive to the rate case and related documentation. Reviewed procedures
       established for the service line rate setting process to ensure that they provide
       adequate guidance to those involved, to ensure that all service lines were prepared
       in accordance with applicable laws, regulations, and FDIC directives for billing
       receiverships.

   •   Judgmentally sampled six service lines and recalculated the supporting data for
       each service line rate option to ensure the rate was accurately and appropriately
       calculated in determining the approved service line rate. Determined whether the
       rate case included an accurate description of the supporting data used in
       evaluating which rate was most appropriate for the service line.



                                             16
                                                                                            APPENDIX 1


To determine whether adequate policies, procedures, guidelines or other instructions have
been established to ensure that time charged to receiverships was accurately recorded and
processed to the RSB, we interviewed the following FDIC personnel:

    •    DRR and DOF officials responsible for the receivership service billing process in
         Headquarters to ascertain the controls established for ensuring time charged to
         receiverships is accurately and appropriately documented and entered into the
         RSB.

    •    Service Line Owners to obtain a description of the processes they conduct during
         monthly reviews to ensure that their service lines are properly billed for monthly
         activity. Obtained the written policies, procedures, or guidelines used in
         conducting their review.

    •    DRR Receivership Oversight Section officials regarding processes to ensure
         receiverships are fairly billed. Determined the procedures they conducted for
         monthly reviews and for ensuring that the administrative expenses billed to
         receiverships were necessary and appropriate.

To determine whether receivership billings were supported and accurately billed, we
performed the following:

    •    Obtained procedures documenting the monthly service line billing process.
         Reviewed the procedures to determine whether they provide current and complete
         guidance over the process.

    •    Obtained a listing of each of the service line invoices by service line from January
         to April 2008 from which we selected our random sample by numbering each
         invoice and using a random number generator for the invoice selection.

    •    Selected a sample of 20 invoices 4 for which we (1) verified that the correct
         service line rate was used, (2) recalculated amounts on the invoice, and
         (3) verified hours billed to CHRIS T&A time charges.

    •    Obtained documentation from the BCCR Administrator indicating that the
         invoices had been reviewed by the Service Line Owners in a timely manner.

    •    Obtained the Receivership Billing Reports for each service line from January –
         April 2008 to verify that the information on these reports corresponded to the
         BCCR invoices selected. If any exceptions were noted, we contacted the DOF
         RSB Administrator and BCCR Administrator to determine the cause for the
         differences.



4
  The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.

                                                     17
                                                                                   APPENDIX 1


          •   Obtained a schedule of the total billed, by service line, from 2004 to 2007 and
              examined the relationship of service line billings to the total number of
              receiverships.

          •   Judgmentally selected five receiverships and verified that the Franchise
              Marketing charges to the service line did not exceed the cost of services provided.


Internal Controls

      We evaluated the effectiveness of controls in place for the receivership service billing
      process. We flowcharted the 2008 rate setting process and identified key internal
      controls by assessing the sufficiency of those controls. Specifically, we reviewed
      evidence of supervisory review and tested the validity of information on rate options.
      Furthermore, we flowcharted the procedures and identified key controls for preparing
      monthly receivership billings. We verified key control points by assessing the processes
      for ensuring that service line data were properly reviewed prior to being recorded in the
      RSB.


Reliance on Computer-processed Information

      Our audit objective did not require that we separately assess the reliability of computer-
      processed data to support our significant findings, conclusions, and recommendations.
      Additionally, in performing this audit, we did not consider it necessary to evaluate the
      effectiveness of information systems controls in order to obtain sufficient, appropriate
      evidence.


Compliance with Laws and Regulations and Government Performance and Results Act

      We reviewed applicable laws and regulations related to the FDIC’s receivership service
      billing process. We found no instances where the FDIC was not in compliance with
      applicable laws and regulations. We assessed the risk of fraud and abuse related to the
      audit objective in the course of evaluating audit evidence.

      We reviewed DRR and DOF performance measures under the Government Performance
      and Results Act, Public Law 103-62. We also reviewed the FDIC’s 2008 Annual
      Performance Plan, the FDIC’s Strategic Plan for 2005-2010 to determine whether the
      FDIC has established goals related to its receivership service billing process. Neither the
      annual plan nor the strategic plans include goals, objectives, or indicators specifically
      related to the subject of our audit. However, we identified that DRR has established
      performance measures for reviewing receivership expenses in Quarterly Updates
      prepared for DRR senior management’s review.




                                                   18
                       APPENDIX 2

CORPORATION COMMENTS
                                                                                                  APPENDIX 3

                 MANAGEMENT RESPONSE TO THE RECOMMENDATION


This table presents the management response on the recommendations in our report and the
status of the recommendations as of the date of report issuance.
         Corrective Action for the           Expected         Monetary    Resolved: a        Open or
         Recommendation Taken               Completion        Benefits    Yes or No          Closed b
                or Planned                     Date
     DRR will update Circular 7000.5        12/31/2008          N/A           Yes             Open
     and develop a job aid that
     documents the review procedures
     performed by the Receivership
     Oversight Section.

     The circular will state that the
     receivership billing review will be
     performed in conjunction with the
     preparation of the Quarterly
     Update. The job aid will provide
     instructions on documenting and
     reporting the results of the review,
     including the reasonableness of the
     charges.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
recommendations, the recommendations can be closed.




                                                         20
                                                                    APPENDIX 4

                 ACRONYMS USED IN THE REPORT



ABC         Activity-Based Costing
BCC         Billing and Cost Center
BCCR        Billing and Cost Center Reporting Tool
C.F.R.      Code of Federal Regulations
CHRIS T&A   Corporate Human Resources Information Time and Attendance System
DOF         Division of Finance
DRR         Division of Resolutions and Receiverships
GAO         Government Accountability Office
NFE         New Financial Environment
RSB         Receivership Service Billing System




                                    21
